         Management Controls for Distance Education
          at State Agencies and Accrediting Agencies




              MANAGEMENT INFORMATION REPORT




                              Control Number ED-OIG/A09-90030
                                       September 2000




Our mission is to promote the efficient                     U.S. Department of Education
and effective use of taxpayer dollars                       Office of Inspector General
in support of American education                            Sacramento, California
                                  NOTICE
In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued
  by the Office of Inspector General are available, if requested, to members of the
 press and general public to the extent information contained therein is not subject
                              to exemptions in the Act.
                                TABLE OF CONTENTS

EXECUTIVE SUMMARY...................................................................................1

STATE AGENCIES’ AND ACCREDITING AGENCIES’
OVERSIGHT, CONCERNS AND RECOMMENDATIONS ON
MANAGEMENT OF DISTANCE EDUCATION ..............................................4

       State Laws and Regulations .......................................................................4

       Agency Requirements and Procedures for Evaluating Educational
            Programs and Courses......................................................................6

       Agency Monitoring Efforts.........................................................................9

       Areas of High Concern to Agencies .........................................................11

       Agency Views on the Title IV Requirements...........................................18

       Agency Interactions with Other Agencies ...............................................19

       Recommendations for Federal Action on Distance Education
       from State Agencies and Accrediting Agencies .......................................20

PURPOSE, SCOPE AND METHODOLOGY ..................................................22

APPENDIX A – State Agencies That Provided Information ...........................24

APPENDIX B – Accrediting Agencies That Provided Information.................26

APPENDIX C – Summary of Agency Rankings for Areas of Concern ...........28

APPENDIX D – Number of Institutions Using Various Distance
             Education Methods.................................................................29
                              EXECUTIVE SUMMARY


The Higher Education Amendments of 1998 define distance education as an educational process
that is characterized by the separation, in time or place, between instructor and student.1
Distance education includes programs and courses offered principally through the use of
television, audio and computer transmission, audio or computer conferencing, video cassettes or
discs or correspondence. Educational programs and courses offered using distance education
methods may impose increased risk on the Title IV, Student Financial Assistance programs due
to a significant increase in the growth of these programs. As a result, the Office of Inspector
General (OIG) is conducting a review of management controls over distance education. This
report provides information gathered from state agencies that license or approve higher education
institutions to operate in their state and accrediting agencies that are recognized by the
U.S. Department of Education (Department) for accrediting institutions authorized to participate
in the Title IV programs. The information covers actions taken or planned by these agencies to
provide the necessary oversight to ensure that institutions using distance education methods meet
state requirements and education quality standards. The following are highlights of the
information provided to us by state agencies and accrediting agencies.

Fifty-six state agencies, from a total of 46 states plus Washington, D.C. and Puerto Rico,
provided information on their laws, regulations and procedures.

    •    Three state legislatures have passed laws and 13 states have state regulations that
         specifically address educational programs and courses delivered primarily through
         computer transmission.

    •    To evaluate institutions’ adherence to state requirements, 21 state agencies supplemented
         the requirements and procedures, which were used for programs and courses offered
         through traditional classroom methods, with additional requirements and procedures for
         educational programs and courses offered through computer transmission. Only two state
         agencies used separate criteria and procedures for evaluating programs and courses
         offered through computer transmission.

Twenty-nine accrediting agencies provided us with information regarding their requirements and
procedures for evaluating educational programs and courses offered through computer
transmission.

    •    Eleven agencies used the same requirements and procedures that they used for programs
         and courses offered through traditional classroom methods.


1
  Throughout the report, we use the term “distance education” to refer to all educational delivery
methods where there is a separation, in time or place, between instructor and student. We refer
to “programs and courses delivered primarily through computer transmission” when the
information is specific to this method of delivery.
ED-OIG                               ED-OIG/A09-90030                                     Page 1
   •     Sixteen agencies supplemented their requirements and procedures for traditional
         classroom methods, with additional criteria and procedures for educational programs and
         courses offered through computer transmission.

   •     Two agencies are currently developing or reviewing specific requirements for programs
         and courses offered through computer transmission.

Thirty-seven state agencies and 23 accrediting agencies provided opinions and comments on
various areas related to distance education. The following are highlights of the information
provided:

   •     Both state agencies and accrediting agencies indicated a high level of concern in the
         following areas for programs and courses delivered primarily through computer
         transmission:

                • education outcomes            • student support services
                • curricula                     • faculty
                • availability of information   • satisfactory academic progress
                   about the institution

         State agencies also indicated a high level of concern regarding out-of-state institutions
         offering programs and courses delivered through computer transmission to their state
         residents.

   •     Most accrediting agencies informed us that the accrediting agencies and institutions
         would be the best organizations to assure that the concerns listed above were addressed.
         State agencies varied in their opinions depending on the area of concern.

   •     State agencies favored more extensive or different reviews of educational programs and
         courses offered primarily through distance education. Accrediting agencies were
         generally of the opinion that it was unnecessary to require different or more extensive
         reviews. However, they did agree that the review techniques should be specific and
         somewhat modified to address distance education methods.

   •     State agencies and accrediting agencies viewed several of the Title IV program
         requirements as safeguards that protect the student and/or taxpayer interest when
         institutions are using or considering the use of distance education methods.

The state agencies and accrediting agencies offered several recommendations for Federal action
that would enhance their agencies’ procedures for protecting students and ensuring quality of
educational programs and courses offered through distance education methods. The report
details these recommendations and provides additional information and comments provided by
the state agencies and accrediting agencies. We suggest that the Assistant Secretary for
Postsecondary Education and the Chief Operating Officer for Student Financial Assistance
consider the information contained in this report, when appropriate, in making management
decisions related to institutions that offer educational programs and courses provided through
distance education methods.




ED-OIG                               ED-OIG/A09-90030                                     Page 2
The methodology used to obtain the information is described in the PURPOSE, SCOPE AND
METHODOLOGY section of the report. We did not confirm the information provided or
evaluate the effectiveness of the agencies’ policies and procedures. The comments and opinions
presented in the report are those provided by the agencies and do not necessarily represent the
position or opinion of the OIG.




ED-OIG                             ED-OIG/A09-90030                                    Page 3
     STATE AGENCIES’ AND ACCREDITING AGENCIES’
    OVERSIGHT, CONCERNS AND RECOMMENDATIONS ON
        MANAGEMENT OF DISTANCE EDUCATION

The Higher Education Amendments of 1998 define distance education as an educational process
that is characterized by the separation, in time or place, between instructor and student. Distance
education includes programs and courses offered principally through the use of television, audio
and computer transmission, audio or computer conferencing, video cassettes or discs or
correspondence. The purpose of our review was to obtain information on state agencies’ and
accrediting agencies’ oversight of such programs and courses. Our data collection efforts were
primarily focused on educational programs and courses delivered primarily through computer
transmission.

A total of 56 state agencies2 and 29 accrediting agencies provided us with information on their
oversight of educational programs and courses delivered primarily through computer
transmission. The 56 state agencies represented 80 percent of the nation’s state agencies. The
29 accrediting agencies represented 78 percent of the accrediting agencies recognized by the
Department for Title IV purposes. Thirty-seven of the 56 state agencies and 23 of the 29
accrediting agencies also provided us with their opinions, comments and recommendations on
various areas as they relate to distance education. Appendices A and B of this report list the state
agencies and accrediting agencies that provided information.



State Laws and Regulations

State legislatures have passed laws and state agencies have implemented regulations to address
distance education issues. Four state agencies (three states) reported having state laws in place
that specifically address educational programs and courses delivered primarily through computer
transmission. Fourteen state agencies (13 states) reported having state regulations that
specifically address such programs and courses.




2
  To simplify reporting, we use 56 state agencies throughout the report which includes agencies
from Washington, D.C. and Puerto Rico.
ED-OIG                               ED-OIG/A09-90030                                       Page 4
                               Table 1 – State Laws and Regulations
                                           (56 responses)

                      Description                          States Laws       State Regulations

 Currently in place that specifically address
 programs and courses delivered primarily through              4 (a)                14 (a)
 computer transmission
 None currently in place but considering such laws
                                                               16                    23
 or regulations

 None currently in place and not considering such
                                                               35                    19
 laws and regulations
(a) Includes two state agencies for the same state.

The state laws currently in place for the four state agencies specified that the state agency’s
jurisdiction included institutions physically located outside the state that offer instruction or
academic degrees to state residents. One state defined “distance education” in its statutes as a
teaching and learning institution in which the instructor and the learner are geographically
separated, and instruction and materials are delivered and/or exchanged by mail, electronic
devices or other means.

Ten of the 14 state agencies provided us with their state regulations that were specific to
programs and courses delivered through computer transmission. Four of the ten state agencies
reported that their states have current regulations that require approval for out-of-state schools
with a physical presence in their states. Physical presence was generally described as having an
instructional site in the state, offering instruction within the state or providing advertising,
promotional material or solicitation in any form that targets state residents or uses local
advertising markets.

Six of the ten state agencies’ current state regulations specify quality standards for distance
education or require distance education programs and courses to meet the same quality standards
as traditional classroom programs and courses. The following are some of the quality standards
specified in the state regulations:

    •    When evaluating institutions with unconventional educational methods, the minimum
         evaluation elements and requirements shall be adjusted to the particular circumstances of
         each case.
    •    Distance education, home study and correspondence programs must be comparable in
         content, faculty and resources to those offered in residency and include provision for
         periodic student-to-faculty interaction.
    •    The program shall provide appropriate real-time or delayed interaction between faculty
         and students.
    •    The program shall provide training for faculty who use technology instruction.
    •    Each program shall result in learning outcomes appropriate to the rigor and breadth of the
         degree program offered.
    •    Educational goals and overall program goals are achievable through distance education
         and graduates of distance education exhibit the skills and knowledge equivalent to
         resident programs of a similar nature.

ED-OIG                                  ED-OIG/A09-90030                                     Page 5
   •     Each course must provide timely feedback to students about their progress and
         performance by methods equivalent to those used for traditional classroom programs and
         courses.
   •     Each student must have access to appropriate academic support services.



Agency Requirements
and Procedures for Evaluating
Educational Programs and Courses

State agencies and accrediting agencies varied on whether they used the same, supplemental or
separate requirements and procedures to evaluate educational programs and courses delivered
primarily through computer transmission. Over half of the state agencies indicated that they
used the same requirements and procedures for evaluating programs and courses delivered
through traditional classroom methods and computer transmission. For accrediting agencies,
about 38 percent used the same requirements and procedures.

                            Table 2 – Requirements and Procedures
               Used for Initial Evaluation of Educational Programs and Courses
                                                                          State        Accrediting
                            Description                                Agencies         Agencies
                                                                     (56 responses)   (29 responses)
 Use same requirements and procedures for traditional classroom
                                                                          32               11
 methods and computer transmission.
 Use additional requirements or procedures for computer
 transmission that supplement those used for traditional classroom        21               16
 methods.
 Separate requirements and procedures for computer transmission.           2               —

 Do not use requirements and procedures                                    1               —
 Currently developing or reviewing specific requirements for
                                                                          —                 2
 computer transmission

Some of the state agencies and accrediting agencies that used the same requirements informed us
that they are either considering or in the process of developing specific distance educational
requirements. Some agencies have established or were in the process of establishing task forces
or focus groups to tackle specific requirements or procedures for distance education.

One state agency was attempting to monitor activities of institutions located in and outside the
state. One accrediting agency offered training sessions on computer transmission for evaluators.
Another accrediting agency performed follow-up and special visits to institutions that offer
programs and courses using computer transmission methods.

The following are examples of state agency requirements or guidelines for distance education
programs and courses:




ED-OIG                                ED-OIG/A09-90030                                          Page 6
   •     An institution shall provide evidence that it has evaluated the programs’ educational
         effectiveness, including assessments of student learning outcomes, student retention,
         student and faculty satisfaction and cost-effectiveness. An institution shall provide
         assessment and documentation of student achievement in each course and at completion
         of the program.

   •     Colleges wishing to offer programs or courses for credit through individual and group
         study mediated and assisted by telecommunications, computer augmented educational
         services, facsimile transmission or the postal service, shall describe the methodology and
         shall submit course outlines and competencies and all other documentation required by
         the standards. Colleges shall maintain records of dates on which lessons, projects and
         dissertations were received and responses delivered.

   •     Each institution shall address issues related to ownership and intellectual property
         derived from the creation and production of software, telecourses or other electronically
         offered programs.

   •     Distance education courses or programs must consist of at least a preliminary lesson or
         set of instructions on how to study by the home study method or adequate study
         instructions per assignment.

   •     Academic admission criteria for the distance education programs offered have been
         established and are consistent with the admissions standards for similar programs at
         institutions using only traditional classroom methods.

   •     A credit hour for distance education must be comparable work to that required for a
         credit hour in a traditional classroom setting.

   •     Content and delivery may be different but must be equivalent to traditional classroom
         courses. If a provider supplies an entire program, the provider must be accredited by the
         applicable accrediting agency.

   •     Faculty functions must include approval of academic policies, program planning and
         evaluation, academic advisement, consulting with student on assignments and related
         intellectual matters, instruction and evaluation of student work. A published list of
         distance education program faculty members, including their qualifications, must be
         made available to prospective students.

   •     Publications should be clear to students about the technological equipment they will
         need, costs/fees they may be charged, what to do if they have problems with technology
         and when technical assistance is available.

   •     The institution shall provide students with complete and timely information regarding
         course and degree requirements, nature of faculty/student interaction, assumptions about
         technological competence and skills, technical equipment requirements, availability of
         academic support services, financial aid resources, and costs and payment policies.

   •     In the case of an Internet site, the state-authorizing agency must be an electronic link
         from the institution’s web site. Institutions cannot make statements about accreditation

ED-OIG                               ED-OIG/A09-90030                                      Page 7
         unless the accreditation is identified and is that of an appropriate nationally recognized
         accrediting agency listed by the Department.

   •     Any school offering distance education courses of instruction shall provide a plan that
         includes a list of the infrastructure and personnel that will be employed to support the
         distance education courses of instruction.

   •     In the case of collaborative distance education degree programs, it is the responsibility of
         the institutions offering the programs to determine which institution will grant the degree.
         Students who are taking coursework at more than one institution shall be counted by each
         institution based on a full-time equivalent standard unless a consortia agreement exists
         between/among the institutions regarding which will count the student for enrollment
         purposes.

The following are examples of accrediting agency requirements or guidelines for distance
education programs and courses:

   •     Schools must justify and explain any deviation from the accrediting agency’s established
         clock-to-credit hour conversions.

   •     Clear policies on ownership of instructional materials and protection of copyright must be
         established.

   •     The faculty must be adequately trained in this form of educational delivery.

   •     The institution must provide an adequate means for resolving student complaints.

   •     All facilities/sites must be identified for review and monitoring.

   •     Facilities, staffing, equipment and other resources associated with the viability and
         effectiveness of the distance education program must reflect the institution's long range
         planning, budgeting and policy development.

   •     The applicable admissions tests, if conducted on-line, must be administered in a manner
         that includes a verification of the student's identity.

   •     Admissions policies, procedures and practices, including all promotional information and
         enrollment agreement, must fully and clearly represent the conditions and requirements
         related to distance education.

   •     Cooperative relationships with other distance education institutions and networks are
         defined. Such relationships may be used to develop institutional expertise in the design
         and delivery of quality courses that use effective distance education technologies.

   •     The school retains responsibility for the quality and the achievement of expected and
         acceptable outcomes, irrespective of any contractual arrangements, partnerships or
         consortia entered into with third parties for the provision of components of a distance
         education course or program.


ED-OIG                                ED-OIG/A09-90030                                       Page 8
   •     Student/teacher ratios and lecture/laboratory allocation section of the distance education
         guidelines states that institutions must demonstrate compliance with applicable Federal
         and state regulations.


Agency Monitoring Efforts

State agencies and accrediting agencies described their monitoring efforts for continued
licensing/approval and accreditation of programs and courses and their opinions on reviews
covering distance education methods. Also, the agencies described the complaints received
related to distance education.

Review types and procedures/techniques. Forty state agencies and 24 accrediting agencies
provided information on the type of monitoring reviews used by their agency. Twenty-five of
the 40 state agencies used on-site reviews for continued licensing/approvals to operate in their
state. Several agencies used both desk and on-site reviews. All 24 of the accrediting agencies
used on-site reviews for continued accreditation.

                             Table 3 – Types of Monitoring Reviews
                                                                 State            Accrediting
                         Description                          Agencies             Agencies
                                                            (40 responses)       (24 responses)
 Desk review of documents submitted by institutions               29                   16
 On-site review at institutions                                   25                   24
 Neither desk review nor on-site review                            4                   —

For both state agencies and accrediting agencies the frequency of monitoring reviews varied
from every year to every ten years.

Most of the state agencies and accrediting agencies used the same procedures/techniques for
monitoring reviews of programs and courses delivered through traditional classroom methods
and computer transmission.

                Table 4 – Procedures/Techniques Used in Monitoring Reviews
                                                              State        Accrediting
                         Description                       Agencies         Agencies
                                                         (36 responses) (24 responses)
 Same procedures/techniques for programs and courses
 are used for traditional classroom methods and computer       26              14
 transmission
 Supplement those used for traditional classroom methods
 with additional procedures/techniques for programs and         9               9
 courses using computer transmission
 Separate procedures/techniques for programs and courses
                                                                1               1
 using computer transmission




ED-OIG                               ED-OIG/A09-90030                                      Page 9
Agencies’ opinions on reviews of distance education methods. Thirty-one state agencies and
20 accrediting agencies provided their opinion on whether institutions offering programs and
courses through distance education methods should be subjected to a different or more extensive
review than institutions that use only traditional classroom methods.

  State Agencies
  • Sixteen of the state agencies stated that different or more extensive reviews were
      appropriate. One agency representative explained that providers offering only distance
      education programs and courses need a full-scale review since they have no traditional
      campus for comparison basis. Another stated that there is a need to build a new virtual
      classroom rubric to address distance education. Another explained that the different
      review criteria or techniques should address areas in which distance education may have
      more impact on learning outcomes, such as access, integrity, qualification of the faculty
      and technology.

  •    Fifteen of the state agencies stated that the same type of review should be conducted for
       both traditional classroom and distance education programs and courses. One state
       representative stated that as long as institutions provide the same level of oversight and
       the same quality of educational programs and courses, there is no need to have a different
       or more extensive review. Some state agency representatives indicated that quality of
       content is important, not the mode of delivery.

Accrediting Agencies
  • Nine of the accrediting agencies generally thought that the review should be specific and
     somewhat modified to address distance education. The other eleven accrediting agencies
     thought that the reviews did not need to be different or more extensive.

Both the state agencies and accrediting agencies stated that the focus of a review should be to
ensure the quality of education rather than on the procedures used. That is, the accountability
and integrity of distance education should be the same as traditional classroom education.

Complaints related to distance education. Thirty-five state agencies and 23 accrediting
agencies provided information regarding complaints related to distance education. Twenty-two
state agencies and 19 accrediting agencies reported that they had not received complaints related
to distance education. The following are examples of the types of complaints that were provided
by the 13 state agencies and 4 accrediting agencies that reported receiving complaints related to
distance education:

   •     Quality misrepresented
   •     Quality of instructional materials
   •     Equipment not dependable
   •     Insufficient faculty preparation
   •     Inadequate feedback from the instructor
   •     Institution not licensed
   •     Institution not accredited
   •     Substandard institutions offering on-line degrees




ED-OIG                                ED-OIG/A09-90030                                   Page 10
Areas of High Concern to Agencies

Thirty-seven state agencies and 23 accrediting agencies provided their levels of concern on
various areas when programs and courses are delivered primarily through computer transmission.
Fifty percent or more of state agencies and accrediting agencies indicated that they were highly
concerned in the following areas:

             • education outcomes                   • student support services
             • curricula                            • faculty
             • availability of information          • satisfactory academic progress
               about institution

Also, 50 percent of the state agencies indicated that they were highly concerned about
out-of-state institutions offering programs and courses delivered through computer transmission
to state residents. Appendix C provides a complete list of areas for which agencies indicated
their level of concern and the percentage of agencies that responded for each concern level (high,
moderate or low).

Educational Outcomes. Twenty-six state agencies and 19 accrediting agencies considered the
educational outcomes as a high area of concern. As shown in Table 5, at least 65 percent of
these agencies considered both completion/graduation rates and assurance that the student is the
one taking the test/completing the work as significant concerns within the educational outcomes
area.

                  Table 5 – High Concerns Within Educational Outcome Area
                                                                  State             Accrediting
                      Description                               Agencies              Agencies
                                                          (26 responded High)   (19 responded High)
 Completion/Graduation rates                                      73%                   74%
 Assurance that the student is the one taking the
                                                                 65%                   68%
 test/completing the work
 Drop out rates                                                  54%                   58%
 Placement rates                                                 46%                   53%
 Professional and vocational licensing                           46%                   47%

State agencies expressed the opinion that the following distance education guidelines should be
considered to address the educational outcome area:

   •     Institutions should develop and implement assessment systems.
   •     Schools offering distance education courses of instruction should assess students’ ability
         to succeed in this form of delivery.
   •     Educational goals and overall program goals must be achievable through distance
         education and graduates should exhibit the skills and knowledge equivalent to resident
         program graduates of similar programs.




ED-OIG                                 ED-OIG/A09-90030                                       Page 11
Accrediting agencies generally agreed that the following educational outcome guidelines,
standards and issues must be addressed and considered.

   •     Observable, measurable and achievable student performance outcomes shall be identified
         and compared to programs and courses with similar subject matter and objectives.
   •     Course or program evaluations must include assessments of educational outcomes,
         student retention, as well as student, faculty and employer satisfaction, to assure
         comparability to traditional classroom programs.
   •     The institution must ensure the integrity of student work and the credibility of the degrees
         and credits it awards to students.

One accrediting agency explained that it required institutions to assess those student outcomes
that may be compared to the traditional classroom student outcomes. Another agency expressed
concerns with students’ ability to pass licensure and certification exams.

Student Support Services. Twenty-two state agencies and 20 accrediting agencies considered
student support services as a high concern. Table 6 shows the specific areas within the student
support services area that these agencies considered as high areas of concern.

                Table 6 – High Concerns Within Student Support Services Area
                                                         State Agencies     Accrediting Agencies
                     Description
                                                      (22 Responded High)   (20 Responded High)
  Academic advising                                           82%                  100%
  Delivery of course materials, including technical
                                                             82%                    95%
  assistance in accessing materials
  Access to library and research materials                   82%                    80%
  Admissions                                                 68%                    55%
  Financial aid                                              50%                    60%

State agencies identified the following as issues that should be considered and addressed.

   •     Assistance in the technical operations, as well as in student services such as admissions,
         enrollment, advisement and financial aid, must be conveniently available.
   •     Access to a library or comparable resources that can provide students with the materials
         necessary for successful completion of the course.
   •     Access to general electronic or computer resources necessary for successful completion
         of the class, including, but not limited to word processing and other productivity tools,
         e-mail and Internet services.

Accrediting agencies generally agreed that the following student support services guidelines,
standards and issues must be addressed and considered.

   •     Students must have the range of student services appropriate to support the program and
         must include tutoring, academic advising, testing, grading, financial aid, delivery of
         books and other materials, placement, counseling and a means for resolving student
         complaints.
   •     Student must have access to and be able to effectively use appropriate library resources,
         laboratories, facilities and equipment appropriate to the courses or programs.




ED-OIG                                 ED-OIG/A09-90030                                      Page 12
One accrediting agency indicated that students need to be able to contact institutions from a
distance on academic and administrative issues. Another accrediting agency suggested
orientation for students in programs and courses offered through computer transmission

Curricula. Twenty-one state agencies and 15 accrediting agencies considered curricula as a
high area of concern. Table 7 shows the areas within curriculum that most of these agencies
considered as high areas of concern.

                        Table 7 -- High Concerns Within Curricula Area
                                                            State Agencies     Accrediting Agencies
                      Description
                                                         (21 responded High)   (15 responded High)
 Contents consistent with the program objectives                76%                   93%
 Delivery method appropriate to the curricula and
                                                                76%                   87%
 student
 Comparability of courses delivered through computer
                                                                71%                   87%
 transmission versus courses provided on-site
 Currency of materials, programs and courses                    62%                   73%
 Evaluation of prepackaged and other curriculum
                                                                48%                   67%
 developed by the faculty

State agencies identified the following as issues that should be considered and addressed.

   •     Instructional methodologies must allow for easy and clear student/faculty and
         student/student interaction.
   •     Distance education programs and courses shall be clearly defined and related to the
         institution's mission and shall be consistent with the goals and objectives of the
         institution.

Accrediting agencies generally maintained that the following curricula principles, guidelines and
standards must be addressed and considered.

   •     Program and courses must be appropriate for delivery through distance education and
         consistent with the institution's role and mission.
   •     There must be sufficient, appropriate and timely interaction between students and faculty
         and among and between students.
   •     Clock or credit hours awarded must be appropriate for the degree and credentials offered
         and the school justifies and explains any deviation from the accrediting agency’s
         established clock-to-credit hour conversions.
   •     The materials, programs and courses must be current.
   •     Policies must be clear concerning ownership of materials and protection of copyright
         issues.

One accrediting agency stated that as part of its curricula evaluation it goes on-line to review the
course. One agency stated that it requires separate accreditation when a new course is added that
involves significant curricula changes. This agency explained that the process was to ensure the
change of the course materials is consistent with the course objective.




ED-OIG                                ED-OIG/A09-90030                                       Page 13
Faculty. Twenty-four state agencies and 15 accrediting agencies considered faculty as a high
area of concern.

                         Table 8 -- High Concerns Within Faculty Area
                                                          State Agencies     Accrediting Agencies
                     Description
                                                       (24 responded High)   (15 responded High)
 Faculty acquires and maintains instructional skills
 appropriate for courses delivered primarily                  83%                    87%
 through computer transmission
 Timely & appropriate level of interaction between
                                                              67%                    80%
 student and faculty

 Faculty has appropriate training in computer
                                                              71%                    73%
 technology

 Number of courses assigned to each instructor                42%                    60%
 Faculty-student ratio                                        38%                    53%

The state agencies generally maintained that the following were issues that should be considered
and addressed.

   •     Ensure that faculty are trained to effectively use the distance education method
         employed.
   •     Ensure there is assistance available to the faculty in the case of technological problems
         both at the time of instructional delivery and at other times.
   •     Ensure the faculty/student ratio is educationally sound for the type of instructional
         delivery.

Accrediting agencies generally agreed that the following faculty issues, standards and guidelines
must be addressed and considered.

   •     Faculty must assume responsibility for and exercise oversight of distance education.
   •     Faculty must be adequately trained in this form of delivery.
   •     The appropriate educational resources and equipment must support faculty in order to
         deliver instruction using this method.
   •     There must be policies in place that address teaching load (student/teacher ratio), class
         size and time needed for course development.
   •     Faculty who teach at a distance must be appropriately oriented and trained in the effective
         use of the technology and methodology to ensure student motivation and quality of
         instruction.
   •     Consider national training programs for faculty.




ED-OIG                                 ED-OIG/A09-90030                                     Page 14
Availability of Information. Twenty-two state agencies and 13 accrediting agencies considered
availability of institutional information as a high area of concern.

               Table 9 -- High Concerns Within Availability of Information Area
                                                       State Agencies          Accrediting Agencies
                    Description
                                                    (22 responded High)        (13 responded High)
 Accreditation disclosure                                    77%                      92%

 State approval disclosure                                   82%                      77%


State agencies generally concluded the following were issues that should be considered and
addressed.

   •     Catalogs or brochures should provide students with clear and complete information on
         the nature of faculty/student interaction, prerequisite technology competencies and skills,
         technical equipment requirements and availability of academic support services.

   •     The institution's catalog and promotional materials shall indicate the maximum time
         permitted for the completion of each course and program offered through distance
         education. Any difference in tuition and fee charges for on-campus and distance shall be
         clearly indicated.

One state agency indicated that state boards or professional associations should approve the
information about institutions. One state agency stressed the importance of providing students
and prospective students with sufficient and accurate information to help them make intelligent
decisions when enrolling in on-line programs or courses. Another agency stated that students
(consumers) should have convenient access to information.

Accrediting agencies generally agreed that catalogs, other publications and advertising must
clearly describe distance education programs and courses, including the delivery system used,
the prerequisites, expected educational outcomes, completion requirements and student services.

Satisfactory Academic Progress. Twenty-two state agencies and 12 accrediting agencies
considered standards of satisfactory academic progress as a high area of concern.

           Table 10 -- High Concerns Within Satisfactory Academic Progress Area
                                                                 State               Accrediting
                      Description                              Agencies                Agencies
                                                         (22 responded High)     (12 responded High)
 Minimum academic standard/qualitative progress
                                                                86%                     92%
 evaluation
 Integrity of student work                                      86%                     75%
 Grading policy                                                 55%                     58%

One state agency had a specific distance education guideline that institutions must have
mechanisms in place to assure the integrity of student work and validity of student testing in
distance education. Another state agency expressed concern that instruction delivered through
computer transmission establishes new parameters for structuring of education and training, and
ED-OIG                                ED-OIG/A09-90030                                        Page 15
therefore, this state agency concluded that concepts such as time frame, residency, course length
and credit/contact hours are no longer adequate for instruction delivered through this medium.

One accrediting agency had a specific guideline that measurement of students’ progress should
be comparable to that used for other programs/courses. Another accrediting agency stated that
completion requirements should be clearly described in the catalog and other publications.

Out-of-state Institutions. Most state agencies had jurisdiction over institutions that had some
type of facility or employees/agents located in their state. However, only about 43 percent of the
state agencies had jurisdiction over institutions that used an advertising medium to target state
residents, but had no facilities or employees/agents in the state.

            Table 11 – Institutions Covered By State Licensing/Approval Jurisdiction3
    Institutions with a physical facility in the state where instruction takes place.                  100%

    Institutions with a physical facility in the state where administrative function occurs.           80%
    Institutions with instructors or other educational providers located in the state, but the
                                                                                                       68%
    institution has no physical facility in the state.
    Institutions with employees or agents located in the state that are recruiting state
                                                                                                       63%
    residents for enrollment.
    Institutions that only have physical facilities in the state that house computer support
                                                                                                       53%
    equipment and staff.
    Institutions using an advertising medium that target state residents. (For example,
                                                                                                       43%
    local broadcasts and city newspapers)

Twenty-two state agencies indicated that they were highly concerned about out-of-state
institutions offering programs and courses delivered through computer transmission to their state
residents.

                    Table 12 – High Concerns By Type of Out-of-State Institution
                                                                                           State Agencies
                                    Description
                                                                                        (22 Responded High)
Out-of-state institutions with physical facilities in the respondent’s state                     82%
Out-of-state institutions with no physical facilities, but have instructors
                                                                                                 77%
located in the respondent’s state
Out-of-state institutions that advertise in the respondent’s state                               59%
Out-of-state institutions that have recruiters located in the resondent’s
                                                                                                 55%
state

One state agency expressed concern about how it would monitor the technology being utilized by
out-of-state institutions and handle complaints from international students. Another state agency
stated that it is difficult to regulate schools with no physical facilities, instructors, employees or
recruiters in its state.




3
    The percentages are based on information provided by 40 state agencies.
ED-OIG                                      ED-OIG/A09-90030                                             Page 16
Agencies’ Opinions on Oversight Agency That Could Best Address the Areas of Concern.
Over 50 percent of the accrediting agencies indicated that the accrediting agencies and the
institutions could best assure the high areas of concern are addressed, except for the area
concerning the availability of information. In that area, 46 percent of the accrediting agencies
listed the state agencies in addition to the accrediting agencies and institutions.

The state agencies varied in their opinions as to the oversight entity or combination of oversight
entities that could best assure the high areas of concern are addressed. Table 13 shows the most
frequent combinations of oversight entities that were indicated by the state agencies.

         Table 13 – State Agency Opinions on Best Entities to Address Areas of Concern
                                                                                      State,
                                               State and           State,
                                State                                             Accrediting,
                                             Accrediting        Accrediting
    High Area of Concerns   Agencies and                                             Federal
                                             Agencies and       and Federal
                             Institutions                                         Agencies and
                                              Institutions       Agencies
                                                                                   Institutions
    Educational Outcome         27%              31%                 4%                12%
    Student Support
                                18%              41%                N/A                14%
    Services
    Curricula                   24%              29%                N/A                14%

    Faculty                     29%              29%                 4%                 8%
    Availability of
                                14%              18%                23%                 9%
    Information
    Satisfactory Academic
                                27%              36%                 5%                14%
    Progress

The state agencies also varied in their opinions on the oversight agencies that could best assure
their concerns regarding out-of-state institutions were addressed. About 32 percent of the highly
concerned respondents felt that the state agencies alone could best assure that issues are
addressed concerning out-of-state institutions offering programs and courses primarily through
computer transmission. About 18 percent indicated that state agencies and accrediting agencies
should take oversight responsibility, while about 14 percent indicated institutions, accrediting
agencies and state agencies should have oversight responsibility. Three state agencies suggested
that the State Higher Education Executive Offices Association (SHEEO),4 employers and
students could best assure that these areas of concern are addressed. One state agency suggested
independent reviewers selected by a state agency as another way of addressing the area of
concern.




4
 SHEEO is a nonprofit, nationwide association of the chief executive officers serving statewide
coordinating boards and governing boards of postsecondary education. According to SHEEO, its
objectives include developing the interest of the states in supporting quality higher education and
promoting the importance of state planning and coordination as the most effective means of
gaining public confidence in higher education. Forty-nine states and Puerto Rico are SHEEO
members.
ED-OIG                                ED-OIG/A09-90030                                       Page 17
Agency Views on the Title IV Requirements

Thirty-two state agencies and 16 accrediting agencies provided us with their views on various
Title IV requirements. The state agencies and accrediting agencies considered several of the
Title IV requirements as safeguards that protect student and/or taxpayer interests from abuse
when institutions are using or considering the use of distance education methods. However,
there were a few of the Title IV requirements where state agencies and accrediting agencies had
differing points of view. The state agencies considered the Title IV requirements as safeguards
from abuse, while the accrediting agencies considered the requirements as limitations or
prohibitions to institutions’ use of distance education methods.

At least 50 percent of the state agencies and the accrediting agencies considered the Title IV
requirements listed in Table 14 as safeguards from abuse.

                         Table 14 -- Title IV Requirements That
           Both State Agencies and Accrediting Agencies Considered a Safeguard
                                                                            State     Accrediting
                                Description
                                                                           Agencies    Agencies
 Student eligibility – ability-to-benefit tests                              56%          88%

 Refunds – fair and equitable refund policy                                  72%          88%
 Refunds – determining period of enrollment for which the student has
                                                                             63%          75%
 been charged
 Loan counseling – individual or group counseling both prior to taking
                                                                             67%          75%
 out loan and before completion/leaving program of study
 Refunds – determining the withdrawal date                                   66%          69%

 Program eligibility – minimum program length                                52%          50%

 Student eligibility – enrollment status (full-time, half-time, etc.)        52%          50%
 Disbursement of the Title IV funds – student's satisfactory
                                                                             50%          50%
 academic progress

At least 66 percent of the state agencies considered the Title IV requirement listed in Table 15 as
a safeguard from abuse.

                              Table 15 – Title IV Requirement That
                            Only State Agencies Considered a Safeguard
                                                                          State       Accrediting
                              Description
                                                                         Agencies      Agencies
 Institutional eligibility – ineligible if more than 50 percent of
 students had neither a high school diploma or its equivalent (non-        66%           37%
 degree granting institutions




ED-OIG                                   ED-OIG/A09-90030                                   Page 18
At least 56 percent of the accrediting agencies considered the Title IV requirements listed in
Table 16 as safeguards from abuse.

                            Table 16 – Title IV Requirements That
                       Only Accrediting Agencies Considered a Safeguard
                               Description                                   Accrediting      State
                                                                              Agencies       Agencies
 Student eligibility – reconciliation of conflicting information
                                                                                56%            40%
 provided on Federal Application for Financial Student Assistance
 Financial need calculation - cost of attendance                                56%            47%

State agencies considered the Title IV requirements listed in Table 17 as safeguards from abuse,
while the accrediting agencies considered these same Title IV requirements as limitations on
institutions’ use of distance education methods.

                             Table 17 – Title IV Requirements That
                           State Agencies Considered a Safeguard and
                           Accrediting Agency Considered a Limitation
                                                                                State       Accrediting
                               Description                                     Agencies      Agencies
                                                                              Considered    Considered
                                                                              Safeguard     Limitation
 Institutional eligibility – ineligible if more than 50 percent of courses
                                                                                  56%           81%
 delivered using correspondence/telecommunications
 Institutional eligibility – ineligible if more than 50 percent of
 students are enrolled in courses delivered using                                 50%           81%
 correspondence/telecommunications




Agency Interactions with Other Agencies


Forty state agencies and 23 accrediting agencies provided us with information on their
interactions with other agencies on distance education issues. In general, the state agencies and
accrediting agencies have contacted others regarding issues related to distance education.

State Agency Interactions. Contacts have taken place between state agency and other state
agencies and accrediting agencies on issues related to distance education. However, the
frequency of interactions varied among state agencies.

                    Table 18 –State Agency Interactions with Other Agencies
                                                                         Other State       Accrediting
                            Description
                                                                          Agencies          Agencies
 No interaction                                                              2                 3
 Interaction with 1 to 5                                                     17                33
 Interaction with 6 to 10                                                    7                 2
 Interaction with 11 or more                                                 14                2




ED-OIG                                  ED-OIG/A09-90030                                          Page 19
Forty-nine percent of the state agencies stated that they have contacted the Department on issues
related to distance education.

Accrediting Agency Interactions. Dialogue has taken place between accrediting agencies and
with state agencies on issues related to distance education. As with state agencies, the frequency
of interactions varied among accrediting agencies.

               Table 19 – Accrediting Agency Interactions with Other Agencies
             Description                  Other Accrediting Agencies           State Agencies
 No interaction                                       2                               7
 Interaction with 1 to 5                             11                               8
 Interaction with 6 to 10                             4                               5
 Interaction with 11 or more                          6                               3

Sixty-five percent of the accrediting agencies stated that they have contacted the Department on
issues related to distance education.

Additional Organization Interactions. The state agencies and accrediting agencies had also
contacted other organizations on issues related to distance education. The following is a list of
those organizations that were most frequently mentioned by the agencies:

                •   SHEEO
                •   Southern Regional Education Board
                •   Council for Higher Education Accreditation
                •   Distance Education and Training Council
                •   American Council on Education



Recommendations for Federal Action on Distance Education from State
Agencies and Accrediting Agencies

State agencies and accrediting agencies had several recommendations for Federal action that
would enhance their licensing/approval and accreditation procedures for protecting students and
ensuring quality of programs and courses that are offered primarily through distance education.

State agencies offered the following recommendations:

   •     Establish an agency similar to the Federal Trade Commission that has guidelines for non-
         profit institutions. According to the state agency that made this recommendation, the
         Federal Trade Commission has guidelines for private school businesses.
   •     Develop a national recognition system (such as a Seal of Approval) to designate
         institutions that have met state requirements and accreditation standards.
   •     Require distance education providers to add a student identity verification component in
         order to qualify for the Title IV funds.
   •     Work together with accrediting, state agencies and institutions to create a model code that
         helps in developing state regulations and rules.
   •     Create a vehicle to better share best practices among agencies.

ED-OIG                                ED-OIG/A09-90030                                      Page 20
   •     Develop national or Federal regulated standards for Internet programs and courses.
   •     Facilitate development of accrediting standards and procedures for use by all national and
         regional accrediting agencies.
   •     Encourage states to strengthen distance education laws.
   •     Mandate an independent review by SHEEO or a state agency at least once every five to
         seven years.
   •     Require Federal regulation for institutions offering programs using distance education
         methods when the institution operates in a state that does not provide sufficient regulation
         of educational programs.
   •     Encourage continual cooperation between the states, accrediting agencies and the
         Department.
   •     Provide Federal attention to instruction delivered across state lines and prosecution of
         fraud.

The accrediting agencies made the following recommendations:

   •     Require institutions to implement an assessment program that will measure student
         education outcome as part of the required accreditation standards.
   •     Establish a student hotline for whistleblowers.
   •     The Department should seek rigorous prosecution of Title IV fraud and abuse.
   •     Congress and the Department should support grants for program development and
         evaluation so that educators can learn more on this subject and have more resources to try
         new and different learning strategies.
   •     The Department should carefully monitor the Distance Education Demonstration Project.




ED-OIG                                ED-OIG/A09-90030                                       Page 21
                  PURPOSE, SCOPE AND METHODOLOGY


The objective of our review was to obtain information on state agencies’ and accrediting
agencies’ oversight of educational programs and courses offered using distance education
methods. Our data collection efforts were primarily focused on educational programs and
courses delivered primarily through computer transmission. We also obtained the agencies’
insights on areas of concerns and Federal involvement regarding distance education.

To accomplish our objective, we met with Department officials to obtain background
information about state agencies and accrediting agencies. We conducted site visits at three state
agencies and two accrediting agencies that the Department considered progressive in addressing
distance education issues.

At the three state agencies, we:

   •     Identified and reviewed state laws, regulations and standards for approving traditional
         schools and classroom programs and those that are unique to distance education.
   •     Reviewed criteria for allowing within state institutions to offer distance education when a
         student is not a state resident and out of state programs when a student is a state resident.
   •     Obtained the state agency’s views on state laws, regulations and standards and future
         issues related to distance education.
   •     Identified the state agency’s procedures for monitoring and assessing the institution
         adherence to distance education requirements and standards.
   •     Reviewed institutional case files to confirm state agency’s procedures were applied.

At the two accrediting agencies, we:

   •     Reviewed the most current accrediting agency standards and procedures and used
         accrediting standards for traditional classroom programs as our baseline.
   •     Conducted interviews with the accrediting agency officials to obtain their views on future
         issues regarding distance education and Federal laws and regulations as they relate to
         distance education.
   •     Identified accreditation standards and procedures that are unique to distance education.
   •     Reviewed institutional case files to determine whether the accrediting agencies applied
         the same standards for the distance education programs and courses.

We contacted a total of 70 state agencies and 37 accrediting agencies to advise them of our
review and solicit information for our review. Fifty-six state agencies provided us with written
information on their state laws, regulations and procedures. Twenty-nine accrediting agencies
provided us with written information on their requirements and procedures. Of these agencies,
37 state agencies and 23 accrediting agencies also provided us with their written concerns and
opinions related to educational programs and courses offered through distance education.




ED-OIG                                ED-OIG/A09-90030                                        Page 22
We summarized the information for inclusion in our report. We also analyzed the information to
identify common areas of concern. We did not confirm the information provided or evaluate the
effectiveness of the agencies’ policies and procedures.

We conducted our site visits at the state agencies and accrediting agencies in July and August
1999. Information from the other state agencies and accrediting agencies was collected during
the period October 1999 through April 2000. Our review was performed in accordance with
generally accepted government auditing standards appropriate to the scope of the review
described above.




ED-OIG                             ED-OIG/A09-90030                                   Page 23
                                       APPENDIX A
                  State Agencies That Provided Information

Table 20 identifies the 56 state agencies that provided us with information, opinions or concerns
regarding program and courses offered primarily through computer transmission and other areas
related to distance education. Several of the agencies provided us with the number of institutions
that the agency licensed/approved and the actual or estimated number of those institutions that
provided programs and courses primarily through computer transmission.

                      Table 20 – State Agencies That Provided Information
                                                                              Using Computer
                                                           Institutions
                       State Agency                                             Transmission
                                                           Approved
                                                                          Courses    Programs
Alaska Commission on Postsecondary Education                      35            5            2
Alabama State Department of Education (2)
Arkansas Department of Higher Education (2)
Arizona State Board of Private
                                                                 122           9(E)        32(E)
Postsecondary Education
California Bureau for Private Postsecondary
                                                                 2300        100(E)       100(E)
and Vocational Education
Colorado Department of Higher Education
                                                                 240          12(E)        12(E)
Division of Private Occupational School
Colorado Commission on Higher Education                          84           27(E)        5(E)
Connecticut Department of Higher Education                       111          30(E)        4(E)
Education Licensure Commission, Washington, D.C. (2)
Delaware Department of Education                                  15            1          1(E)
Florida State Board of Independent Colleges
                                                                 207          25(E)        5(E)
and Universities
Georgia Nonpublic Postsecondary
                                                                 130          10(E)        15(E)
Education Commission
Hawaii Department of Education (2)
Iowa Department of Education (2)
Idaho State Board of Education                                    7                         0
Illinois State Board of Education (1)                            240           4(E)        4(E)
Illinois Board of Higher Education (1)                           169
Indiana Commission on Proprietary Education                      114            0            0
Kansas Board of Regents
Kentucky Council on Postsecondary Education                       79          30(E)        10(E)
Louisiana Division of Adult Education and Training (2)
Louisiana Board of Regents                                        75            75           0
Massachusetts Private Postsecondary Schools (2)
Maryland Higher Education Commission                              58            58          12
Maine Higher Education Services (2)
Michigan Department of Education (2)
Minnesota Higher Education Services (2)
Missouri Coordinating Board for Higher Education                 120           5(E)        5(E)
Nebraska Department of Education (2)



ED-OIG                              ED-OIG/A09-90030                                      Page 24
Nebraska Coordinating Commission for
Postsecondary Education
University of North Carolina                                          5
North Dakota State Board of Vocational And
Technical Education - Division of Independent Study
Nevada Commission on Postsecondary Education                         123             1            1
New Hampshire Postsecondary Education Commission                     35            30(E)        30(E)
New Jersey Commission on Higher Education                            59              0            0
New York Bureau of Proprietary Schools (2)
New York State Education Department                                  268
Ohio State Board of Proprietary School Registration                  205           10(E)         5(E)
Oklahoma Board of Private Vocational Schools (2)
Oklahoma State Regents for Higher Education                           46           15(E)         5(E)
Oregon Department of Education (2)
Oregon Student Assistance Commission,
                                                                      51
Office of Degree Authorization
Pennsylvania Department of Education                                 265
Puerto Rico Council on Higher Education                              41              5            2
Rhode Island Office of Higher Education                              25
South Dakota Board of Regents (2)
Tennessee Higher Education Commission (1)                            156           10(E)         2(E)
Texas Workforce Commission, Proprietary Schools                      360             0             0
Utah State Board of Regents                                           87            6(E)         6(E)
Vermont Department of Education                                       8
Virginia Council of Higher Education (2)
Washington Workforce Training and
                                                                     253             2            2
Education Coordinating Board
Washington Higher Education Coordinating Board                       80
Wisconsin Education Approval Board                                   123                         4(E)
West Virginia State College and University Systems                   16            8(E)          1(E)
Wyoming Department of Education                                      23            4(E)          4(E)

(1) Site Visit
(2) Provided information regarding requirements only.
(E) Represents an estimate.

Note: The area is shaded for those agencies that either did not provide the information or indicated that
they could not estimate the number.




ED-OIG                                ED-OIG/A09-90030                                         Page 25
                                      APPENDIX B
             Accrediting Agencies That Provided Information

Table 21 identifies the 29 accrediting agencies that provided us with information, opinions or
concerns regarding program and courses offered primarily through computer transmission and
other areas related to distance education. Several of the agencies provided us with the number of
institutions that the agency licensed/approved and the actual or estimated number of those
institutions that provided programs and courses primarily through computer transmission.

Also, the Distance Education and Training Council (Council) provided us with information on
their standards and procedures and other information related to distance education methods.
According to the Council, its purpose is to promote sound educational standards and ethical
business practices within correspondence schools. While the Council is recognized by the
Secretary as a national accrediting agency, accreditation by the Council does not enable the
entities it accredits to establish eligibility to participate in the Title IV programs.

                  Table 21 – Accrediting Agencies That Provided Information
                                                            Number of         Using Computer
                     Accrediting Agency                     Institutions        Transmission
                                                            Accredited     Courses Programs
Accrediting Association of Bible Colleges                          86
Accrediting Bureau of Health Education Schools (2)
Accrediting Commission of Career Schools and
                                                                  716           2          2
Colleges of Technology
Accrediting Council for Continuing
                                                                  229           3          3
Education and Training
Accrediting Council for Independent
                                                                  615         15(E)      10(E)
Colleges and Schools (1)
American Academy for Liberal Education                             5                       0
American Association of Nurse Anesthetists Council on
                                                                   83
Accreditation of Nurse Anesthesia Educational Programs
American Bar Association Council of the
                                                                  182                      0
Section of Legal Education and Admissions to the Bar
American Board of Funeral Service Education
                                                                   50           4          0
Committee on Accreditation
American Dietetic Association Commission on
                                                                  600         0(E)        0(E)
Accreditation/Approval for Dietetics Education
American Osteopathic Association
                                                                   19                     0(E)
Bureau of Professional Education
Association of the Theological Schools in the
                                                                  237          47          0
United States and Canada, Committee on Accrediting
Council on Occupational Education                                 336         9(E)         0
Joint Review Committee on Education
                                                                  680
in Radiologic Technology
Middle States Association of Colleges and Schools
                                                                  496        143(E)      92(E)
Commission on Higher Education



ED-OIG                              ED-OIG/A09-90030                                    Page 26
Montessori Accreditation Council for Teacher Education,
                                                                   91           0          0
Commission on Accreditation
National Accrediting Agency for Clinical
Laboratory Sciences (2)
National Association of Schools of Art and Design
National Association of Schools of Dance
National Association of Schools of Music
National Association of Schools of Theatre,
Commissions on Accreditation (2) (3)
National League for Nursing Accrediting Commission                1784                   15(E)
New England Association of Schools and Colleges
                                                                  209                    35(E)
Commission on Institutions of Higher Education
New England Association of Schools and Colleges,
                                                                  136           1          5
Commission on Technical and Career Institutions
North Central Association of Colleges and Schools,
                                                                  993          300        106
Commission on Institutions of Higher Education (1)
North Central Association Commission on Schools                   130
Northwest Association of Schools and Colleges,
                                                                  153        100(E)      100(E)
Commission on Colleges
Southern Association of Colleges and Schools
                                                                  784                    250(E)
Commission on Colleges
Transnational Association of Christian Colleges and Schools,
                                                                   32           0          0
Accrediting Commission
Western Association of Schools and Colleges,
                                                                  137        100(E)
Accrediting Commission for Community and Junior Colleges
Western Association of Schools and Colleges,
Accrediting Commission for Schools (2)
Western Association of Schools and Colleges,
Accrediting Commission for
Senior Colleges and Universities (2)

(1) Site Visit
(2) Provided information regarding requirements only.
(3) National Office for Arts Accreditation in Higher Education provided information for the four
    related accrediting agencies.
(E) Represents an estimate.

Note: The area is shaded for those agencies that either did not provide the information or
indicated that they could not estimate the number.




ED-OIG                               ED-OIG/A09-90030                                   Page 27
                                          APPENDIX C
                                   Summary of Agency
                               Rankings for Areas of Concern

Table 22 shows the percentage of state agencies and accrediting agencies that ranked the twelve
areas covered by our review as either a high, moderate or low level of concern. The results
showed that 70 percent of the state agencies that provided us with information considered
educational outcomes a high area of concern. Eighty-seven percent of the accrediting agencies
considered student support services a high area of concern.

                               Table 22 – Rankings for Areas of Concern
                                       State Agencies                Accrediting Agencies
             Issues             High     Moderate       Low          High       Moderate       Low
                                 %         %             %            %           %             %

 Educational outcomes            70         16             14         83            4           13


 Student support services        60         35             5          87            4            9


 Curricula                       57         32             11         65            9           22


 Faculty                         65         32             3          65           26            9

 Availability of information
                                 60         35             5          57           30           13
 about institutions
 Satisfactory academic
                                 61         31             8          52           35           13
 progress
 Facility, equipment and
                                 54         24             22         36           41           23
 supplies
 Recruiting and admissions
                                 54         38             8          39           57            4
 policies

 Course length                   33         33             33         22           43           35


 Refund policies                 46         32             22         27           37           36


 Consortia (a)                   33         36             31         30           39           31

 Out-of-state institutions
 offering course and             59         27             14         —            —            —
 program to state residents

 (a) Consortia of two or more institutions that agreed to collaborate on a common effort such as sharing
 distance education courses.




 ED-OIG                                 ED-OIG/A09-90030                                       Page 28
                                         APPENDIX D
                           Number of Institutions
                  Using Various Distance Education Methods

Thirty-seven state agencies and 24 accrediting agencies provided us with the actual or estimated
number of institutions using distance education methods that the agency licensed/approved. The
below table shows the totals (actual and estimated numbers) reported by the agencies by type of
distance education method. Institutions that use more than one distance education method are
included in each applicable category.

                           Table 23 – Estimated Number of Institutions
                           Using Various Distance Education Methods
                                                                        State           Accrediting
                                                                      Agencies            Agencies
                          Description                             (37 agencies that   (24 agencies that
                                                                   approved 6,335     accredited 8,783
                                                                    institutions)       institutions)
 Offer educational programs delivered primarily through
                                                                        269                 618
 computer transmission
 Offer educational courses delivered primarily through
                                                                        482                 724
 computer transmission
 Offer educational programs/courses delivered using television,
                                                                        131                 789
 audio or satellite transmission
 Offer educational programs/courses delivered using video
                                                                         65                 528
 cassettes or discs
 Offer educational programs/courses delivered through
                                                                         86                 351
 correspondence




ED-OIG                                  ED-OIG/A09-90030                                       Page 29
                           REPORT DISTRIBUTION LIST


                                                                       No. of
                                                                       Copies

Action Officials
Mr. Lee Fritschler                                                      1
Assistant Secretary, Office of Postsecondary Education

Mr. Greg Woods                                                          1
Chief Operating Officer, Student Financial Assistance

Other ED Officials
Ms. Karen Kershenstein                                                  1
Accreditation and State Liaison Staff Director
Office of Postsecondary Education

Ms. Marianne Phelps                                                     1
Distance Education Director
Office of Postsecondary Education

Ms. Victoria Edwards                                                    1
Case Management and Oversight Director
Student Financial Assistance

Mr. Jeff Baker                                                          1
Product Development Director
Student Financial Assistance

Mr. Alex Wohl                                                           1
Director, Public Affairs
Office of the Secretary

Office of Inspector General
Inspector General                                                       1
Assistant Inspector General for Audit                                   1
Assistant Inspector General for Investigations                          1
Assistant Inspector General for Analysis and Inspections                1
Regional Inspectors General for Audit                                   1 each
Director, Student Financial Assistance, Advisory and Assistance Team    1
Director, Non-Federal Audit Team                                        1
